Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




   CMS’S RELIANCE ON ILLINOIS
 LICENSURE REQUIREMENTS COULD
 NOT ENSURE THE QUALITY OF CARE
  PROVIDED TO MEDICAID HOSPICE
         BENEFICIARIES


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General
                                                     for Audit Services

                                                          June 2014
                                                        A-05-12-00028
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 CMS’s reliance on Illinois licensure requirements could not ensure the quality of care
 provided to Medicaid hospice beneficiaries.

WHY WE DID THIS REVIEW

Hospice care is a program of palliative care that provides for the physical, emotional, and
spiritual care needs of a terminally ill patient and his or her family. Hospices must comply with
Federal and State requirements to ensure that hospice care is furnished by qualified workers.
Prior Office of Inspector General (OIG) reviews of personal care services (PCS) found that
services were provided by PCS attendants who did not meet State qualification requirements.
OIG is performing reviews in various States to determine whether similar vulnerabilities exist at
hospices.

The objective of this review was to determine whether the Centers for Medicare & Medicaid
Services’ (CMS) reliance on Illinois licensure requirements for hospice workers ensured quality
of care and that adequate protection was provided to Medicaid hospice beneficiaries.

BACKGROUND

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. Hospice care can be provided to
individuals in a home, hospital, nursing home, or hospice facility.

In Illinois, the Department of Healthcare and Family Services (State agency) administers the
Medicaid program in accordance with a CMS-approved State plan. The State plan establishes
what services the Medicaid program will cover, including hospice care when it is provided by a
licensed hospice.

A Medicaid participating hospice must meet the Medicare conditions of participation for
hospices, one of which requires a hospice to be licensed if State or local law provides for
licensing of hospices. Hospice providers that fail to meet conditions of participation may be
required to enter into a plan of correction or be subject to termination from the Medicare and
Medicaid programs. However, a hospice provider may not be subject to disallowance of past
claims if found to be noncompliant or deficient with standards in the conditions of participation.
CMS relies on the States to license hospices within their jurisdictions. In Illinois, the
Department of Public Health approves and issues hospice licenses. To be licensed, hospices
must comply with certain hospice worker requirements.

Qualified individuals must provide hospice care services in accordance with Federal and State
regulations. Hospice care services include, but are not limited to, nursing care, home health aide
services, physical therapy, social worker services, and spiritual care. When hospice care is
furnished to an individual residing in a nursing facility, hospice care payments include payments
for room and board in addition to hospice care services.

CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                 i
When a beneficiary is eligible for both Medicare and Medicaid (dually eligible) and elects the
hospice benefit, Medicare pays for the hospice care services, and Medicaid pays for the room
and board portion only. Hospice workers provide direct care to dually eligible beneficiaries and
affect the quality of care provided to these beneficiaries.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid hospice claims of $100 or more paid to Illinois hospices
during the 2-year period January 1, 2009, through December 31, 2010. From a total of 56,044
hospice claims, we reviewed a random sample of 120 claims. A claim represented the Medicaid
costs for room and board, or hospice care services, or both, paid for one beneficiary during a
month. We reviewed 102 claims for room and board, 12 claims for hospice care services, and 6
claims for both room and board and hospice care services. For these 120 claims, we reviewed
the qualifications of the 613 corresponding hospice workers, from 42 hospices, who provided
direct care to the Medicaid beneficiaries during the month.

WHAT WE FOUND

CMS’s reliance on Illinois licensure requirements could not ensure quality of care and that
adequate protection was provided to Medicaid hospice beneficiaries. We determined in most
cases that hospices did not meet State hospice licensure requirements related to hospice workers.
Of the 120 claims that we sampled, 110 involved direct care provided by unqualified hospice
workers. On the basis of these sample results, we estimated that 51,374 of the 56,044 claims
covered by our review were associated with unqualified hospice workers.

Of the 110 claims that involved direct care provided by unqualified hospice workers, 93 claims
were for room and board only, with Medicare covering the corresponding hospice care service
claims. The remaining 17 claims included hospice care services covered by Medicaid.
Unqualified hospice workers affect only Medicaid payments for hospice care services, not
payments for room and board; therefore, on the basis of our sample results, we estimated that
$13,390,913 ($8,163,671 Federal share) in Medicaid payments for hospice care services included
in the claims covered by our review were provided by unqualified hospice workers.

For the 110 claims that involved direct care provided by unqualified hospice workers (38 of
which had more than 1 type of deficiency), the following licensure requirements were not met:

    •   initial health evaluation requirements (110 claims),

    •   background check requirement (20 claims),

    •   training requirements (17 claims),

    •   personnel file requirements (12 claims),

    •   written job description requirement (5 claims), and


CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)               ii
    •   hospice worker certification requirement (2 claims).

WHAT WE RECOMMEND

To improve protection provided to Medicaid hospice beneficiaries, we recommend that CMS:

    •   work with the State agency and the Illinois Department of Public Health to ensure that
        hospices meet the State licensure requirements for hospice workers and

    •   consider working with the State agency to modify the State agency’s hospice payment
        conditions by implementing provisions similar to the State licensure requirements for
        hospice workers.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency had no further comments or additional
information to present.

CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendations.




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)             iii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

           Why We Did This Review ................................................................................................ 1

           Objective ........................................................................................................................... 1

           Background ....................................................................................................................... 1
                 The Medicaid Program: How It Is Administered ................................................ 1
                 Hospices Provide Care to Terminally Ill Patients ................................................. 2

           How We Conducted This Review..................................................................................... 2

FINDINGS .................................................................................................................................... 2

           Licensure Requirements for Hospice Workers Were Frequently Not Met....................... 3
                  Hospices Did Not Meet Initial Health Evaluation Requirements for Workers .... 3
                  Hospices Did Not Meet the Background Check Requirement for Workers ......... 4
                  Hospices Did Not Meet Training Requirements for Workers .............................. 4
                  Hospices Did Not Meet Personnel File Requirements for Workers ..................... 4
                  Hospices Did Not Meet the Written Job Description Requirement for Workers . 5
                  Hospices Did Not Meet the Certification Requirement for Workers ................... 5

           CMS’s Reliance on Illinois Licensure Requirements for Hospice Workers Could Not
             Ensure the Quality of Care Provided to Medicaid Beneficiaries ................................. 5

RECOMMENDATIONS .............................................................................................................. 5

STATE AGENCY COMMENTS ................................................................................................. 6

CMS COMMENTS ...................................................................................................................... 6

APPENDIXES

           A: Audit Scope and Methodology ................................................................................... 7

           B: Statistical Sampling Methodology .............................................................................. 9

           C: Sample Results and Estimates ................................................................................... 11

           D: State Regulations for Hospice Workers .................................................................... 13

           E: State Agency Comments ........................................................................................... 16

           F: CMS Comments ........................................................................................................ 17

CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                                                                 iv
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Hospice care is a program of palliative care that provides for the physical, emotional, and
spiritual care needs of a terminally ill patient and his or her family. Hospices must comply with
Federal and State requirements to ensure that hospice care is furnished by qualified workers.
Prior Office of Inspector General (OIG) reviews of personal care services (PCS) found that
services were provided by PCS attendants who did not meet State qualifications requirements. 1
OIG is performing reviews in various States to determine whether similar vulnerabilities exist at
hospices.

OBJECTIVE

Our objective was to determine whether the Centers for Medicare & Medicaid Services’ (CMS)
reliance on Illinois licensure requirements for hospice workers ensured quality of care and that
adequate protection was provided to Medicaid hospice beneficiaries.

BACKGROUND

The Medicaid Program: How It Is Administered

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the Medicaid program. In Illinois, the
Department of Healthcare and Family Services (State agency) administers the Medicaid program
in accordance with a CMS-approved State plan. The State plan establishes what services the
Medicaid program will cover, including hospice care when it is provided by a licensed hospice.

A Medicaid participating hospice must meet the Medicare conditions of participation for
hospices and have a valid provider agreement to provide hospice care (State Medicaid Manual
§ 4305). One of the conditions of participation requires a hospice to be licensed if State or local
law provides for licensing of hospices (42 CFR § 418.116). Hospice providers who fail to meet
conditions of participation in 42 CFR part 418 may be required to enter into a plan of correction
or be subject to termination from the Medicare and Medicaid programs. However, a hospice
provider may not be subject to disallowance of past claims if found to be noncompliant or
deficient with standards in the conditions of participation. CMS relies on the States to license
hospices within their jurisdictions. In Illinois, the Department of Public Health approves and
issues hospice licenses. To be licensed, hospices must comply with certain hospice worker
requirements.

When hospice care is furnished to an individual residing in a nursing facility, hospice care
payments include payments for room and board in addition to hospice care services. If a
beneficiary is eligible for both Medicare and Medicaid (dually eligible) and elects the hospice

1
 U.S. Department of Health and Human Services, OIG, portfolio entitled Personal Care Services: Trends,
Vulnerabilities, and Recommendations for Improvement, issued November 15, 2012.

CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                     1
benefit, Medicare pays for the hospice care services, and Medicaid pays for the room and board
portion only. Hospice workers provide direct care to dually eligible beneficiaries and affect the
quality of care provided to these beneficiaries.

Hospices Provide Care to Terminally Ill Patients

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. An individual is considered to be
terminally ill if the individual has a medical prognosis that his or her life expectancy is 6 months
or less if the illness runs its normal course. Hospice care can be provided to individuals in a
home, hospital, nursing home, or hospice facility.

Qualified individuals must provide hospice care services in accordance with Federal and State
regulations. Hospice care services include, but are not limited to, nursing care, home health aide
services, physical therapy, social worker services, and spiritual care.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid hospice claims 2 of $100 or more paid to Illinois hospices
during the 2-year period January 1, 2009, through December 31, 2010. From a total of 56,044
hospice claims, we reviewed a random sample of 120 claims. A claim represented the Medicaid
costs for room and board, or hospice care services, or both, paid for one beneficiary during a
month. 3 For these 120 claims, we reviewed the qualifications of the corresponding 613 hospice
workers, from 42 hospices, who provided direct care to the Medicaid beneficiaries during the
month.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
sample design and methodology, and Appendix C contains our sample results and estimates.
Appendix D contains excerpts from the applicable State regulations.

                                                    FINDINGS

CMS’s reliance on Illinois licensure requirements could not ensure quality of care and that
adequate protection was provided to Medicaid hospice beneficiaries. We determined that in
most cases hospices did not meet State hospice licensure requirements related to hospice

2
  For this report, we define a claim as a group of paid claim lines for hospice care provided by one hospice to a
single beneficiary during a single month.
3
 We reviewed 108 claims for room and board and 18 claims for hospice care services. The total exceeds 120
because 6 claims were for both room and board and hospice care services.

CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                                2
workers. Of the 120 claims that we sampled, 110 involved direct care provided by unqualified
hospice workers. On the basis of these sample results, we estimated that 51,374 of the 56,044
claims covered by our review were associated with unqualified hospice workers. Of the 110
claims involving direct care provided by unqualified hospice workers, 17 claims included
hospice care services. We estimated that $13,390,913 ($8,163,671 Federal share) in Medicaid
payments for claims covered by our review were for hospice care services provided by
unqualified workers.

LICENSURE REQUIREMENTS FOR HOSPICE WORKERS
WERE FREQUENTLY NOT MET

Of the 120 claims that we sampled, 110 involved direct care provided by workers at hospices
that did not meet 1 or more of the State’s licensure requirements for hospices. For this report, we
refer to these hospice workers as unqualified. The table below summarizes, by licensure
requirement, the number of sampled claims associated with the deficiencies that we identified.

           Summary of Sampled Claims Associated With Unqualified Hospice Workers

                          Type of Deficiency                                       Claims Affected 4
Initial health evaluation requirements were not met                                      110
Background check requirement was not met                                                  20
Training requirements were not met                                                        17
Personnel file requirements were not met                                                  12
Written job description requirement was not met                                            5
Hospice worker certification requirement was not met                                       2

On the basis of these sample results, we estimated that 51,374 of the 56,044 claims covered by
our review were associated with unqualified hospice workers.

Of the 110 sampled claims that involved direct care provided by unqualified hospice workers, 93
claims were for room and board only, with Medicare covering the corresponding hospice care
service claims. The remaining 17 claims included hospice care services covered by Medicaid.
Unqualified hospice workers affect only Medicaid payments for hospice care services, not
payments for room and board; therefore, on the basis of our sample results, we estimated that
$13,390,913 ($8,163,671 Federal share) in Medicaid payments for hospice care services included
in the claims covered by our review were provided by unqualified hospice workers.

Hospices Did Not Meet Initial Health Evaluation Requirements for Workers

For hospice workers associated with 110 of the 120 sampled claims, hospices did not ensure that
an initial health evaluation was completed for each worker in compliance with State licensure
requirements. State regulations specify that an initial health evaluation be completed within 30
days of hire and include a health inventory, physical examination, and tuberculin skin test. 5
4
    The total exceeds 120 because 38 claims had more than 1 type of deficiency.

5
    77 Ill. Admin. Code § 280.2045, see Appendix D.

CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                   3
Hospices Did Not Meet the Background Check Requirement for Workers

For 20 sampled claims, hospices did not ensure that a background check was completed in
compliance with the State licensure requirements. State regulations specify that a background
check must be completed for all nonlicensed workers employed by or volunteering for the
hospice, which includes, but is not limited to, certified nursing assistants and clergy. 6

Hospices Did Not Meet Training Requirements for Workers

For 17 sampled claims, hospices did not meet training requirements as required by State
licensure requirements. Specifically:

      •    For six claims, hospices did not document inservice training. State regulations specify
           that all workers must attend inservice training programs pertaining to their assigned
           duties at least annually. Written records of program content and personnel attending each
           session must be maintained. 7

      •    For one claim, a hospice did not document that a hospice worker completed an
           orientation program. State regulations specify that all new workers must complete an
           orientation program covering, at a minimum, the program’s philosophy and goals; job
           orientation, emphasizing allowable duties of the new worker; safety; and appropriate
           interactions with patients and families. 8

      •    For 10 claims, hospices did not document both inservice training and orientation.

Hospices Did Not Meet Personnel File Requirements for Workers

For 12 sampled claims, hospices did not maintain all required information for hospice workers.
State licensure requirements specify that employment application forms must be completed on
each worker and kept on file in the program’s central office. The file must contain, at a
minimum, home address; telephone number; Social Security number; educational background;
documentation of current professional certification, licensure, or registration, as applicable; and
past employment history, including dates, positions held, and reasons for leaving. The date of
employment and position held must be documented in each file. 9




6
    77 Ill. Admin. Code § 280.2035; see Appendix D.

7
    77 Ill. Admin. Code § 280.2040g.

8
    77 Ill. Admin. Code § 280.2040f.

9
    77 Ill. Admin. Code § 280.2040b.


CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                  4
Hospices Did Not Meet the Written Job Description Requirement for Workers

For five sampled claims, job descriptions listing the hospice worker’s duties were not
available. 10 State licensure requirements specify that each worker must have an accurate written
job description. 11

Hospices Did Not Meet the Certification Requirement for Workers

State licensure requirements require that any individual providing home health services be
registered in the State. 12

For one home health aide associated with one claim, the hospice was unable to provide the aide’s
personnel file or evidence of the aide’s certification.

For one aide associated with one claim, the hospice did not ensure that the aide was certified in
Illinois at the time the aide provided services. The aide was, however, certified in Iowa and was
subsequently certified in Illinois.

CMS’S RELIANCE ON ILLINOIS LICENSURE REQUIREMENTS FOR HOSPICE
WORKERS COULD NOT ENSURE THE QUALITY OF CARE PROVIDED TO
MEDICAID BENEFICIARIES

CMS relied on State licensure requirements for hospices. However, we found that in most cases
hospices did not meet certain State licensure requirements for employee health examinations,
background checks, personnel files, job descriptions, and certifications. CMS’s reliance on the
licensure requirements could not ensure quality of care and that adequate protection was
provided to Medicaid beneficiaries. Hospices are licensed in accordance with State regulations
and hospices are expected to comply with those regulations.

The effect of the deficiencies that we identified in our review was that hospices could not be sure
that hospice workers were free of any health conditions that might have created a hazard for the
Medicaid beneficiaries. Further, they could not always demonstrate that the hospice workers met
certain State requirements such as meeting background checks, training requirements, and
certifications.

                                          RECOMMENDATIONS

To improve protection provided to Medicaid hospice beneficiaries, we recommend that CMS:



10
  Errors were not counted if the hospice had a job description for the employee type, even if the job description was
not maintained in the employee file.

11
     77 Ill. Admin. Code § 280.2040c.

12
     77 Ill. Admin. Code § 245.70, see Appendix D.

CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                                5
    •   work with the State agency and the Illinois Department of Public Health to ensure that
        hospices meet the State licensure requirements for hospice workers and

    •   consider working with the State agency to modify the State agency’s hospice payment
        conditions by implementing provisions similar to the State licensure requirements for
        hospice workers.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency had no further comments or additional
information to present. The State agency’s comments are included in their entirety as
Appendix E.

                                          CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendations. CMS’s
comments are included in their entirety as Appendix F.




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)              6
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

For the audit period January 1, 2009, through December 31, 2010, we limited our review to
Medicaid payments that the State agency made to hospice providers for hospice care provided to
Medicaid beneficiaries as authorized under the State plan. We excluded claims in which the paid
amount was less than $100. 13

After taking into account the exclusions above, we determined that the State processed and paid
56,044 Medicaid claims totaling $142,972,076 ($87,817,445 Federal share) for hospice care
services during the audit period. We reviewed a random sample of 120 claims.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork from January 2012 through March 2013 at 42 hospices throughout
Illinois.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal and State laws, regulations, and guidance;

     •   held discussions with State agency officials to gain an understanding of the State
         agency’s hospice program;

     •   obtained Medicaid paid claims for service dates from January 1, 2009, through
         December 31, 2010, from the State agency;

     •   identified a sampling frame of 56,044 claims, totaling $142,972,076
         ($87,817,445 Federal share);

     •   selected a random sample of 120 claims from our sampling frame and, for each claim,
         obtained and reviewed the hospice’s documentation to determine whether hospice
         workers who provided direct care to the beneficiaries in our sample claims were qualified
         in accordance with Federal and State requirements;

     •   estimated the amount of Federal Medicaid reimbursement for claims associated with
         unqualified workers in the total population of 56,044 claims; and




13
  A claim represented the Medicaid costs for room and board, hospice care services, or both, paid for one
beneficiary during the month.


CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                        7
    •   estimated the number of claims that were associated with at least 1 unqualified hospice
        worker in the total population of 56,044 claims.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)              8
                   APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid claims 14 of $100 or more that the State made to hospices
for care provided from January 1, 2009, through December 31, 2010, for which the State claimed
Federal Medicaid reimbursement.

SAMPLING FRAME

The sampling frame was a data file provided by the State agency containing Medicaid payments
during the audit period for hospice care. We excluded claims in which the paid amount was less
than $100. After these exclusions, the sampling frame was 56,044 Medicaid claims with
Medicaid payments of $100 or more paid to hospices during the audit period, for hospice care
totaling $142,972,076 ($87,817,445 Federal share).

SAMPLE UNIT

The sample unit was a claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 120 claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG, Office of Audit Services (OAS), statistical
software.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame. After generating the random
numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable amounts. Because the
State agency had different Federal medical assistance percentages (FMAPs) 15 for the audit

14
  A claim is the group of paid claim lines for hospice care provided by one hospice to a single beneficiary during
the month.
15
     The FMAP rate for the claims in our audit period ranged quarterly from 50 percent to 61.88 percent.


CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                                 9
period, we calculated the Federal reimbursement amount for each sample claim by applying the
applicable FMAP to the total amount determined to be associated with unqualified hospice
workers for the sample claim. Errors related to an unqualified hospice worker who provided
services associated with more than one claim were counted for each claim in which the
unqualified hospice worker provided services. We used the point estimate to determine the
dollar amount of Federal Medicaid reimbursement just for claims that included hospice care
services provided by unqualified hospice workers and the number of claims associated with
unqualified hospice workers.




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)       10
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

   HOSPICE CLAIMS ASSOCIATED WITH UNQUALIFIED HOSPICE WORKERS

                                   Sample Results: Total Amounts

                                                                           Number of     Value of
                                                                           Claims for   Claims for
                                                                          Hospice Care Hospice Care
                                                                            Services     Services
                                                                          Provided by Provided by
                    Value of                              Value of        Unqualified  Unqualified
 Frame Size          Frame            Sample Size          Sample           Workers      Workers
   56,044         $142,972,076           120              $258,803             17        $28,672



                              Sample Results: Federal Share Amounts

                                                                                         Value of
                                                                                        Claims for
                                                                           Number of Hospice Care
                                                                           Claims for    Services
                                                                          Hospice Care Provided by
                    Value of                              Value of          Services   Unqualified
                     Frame                                 Sample         Provided by    Workers
                    (Federal                              (Federal        Unqualified    (Federal
 Frame Size          Share)           Sample Size          Share)           Workers       Share)
   56,044          $87,817,445           120              $159,112             17         $17,480




 Estimates of Medicaid Payments for Claims Including Hospice Care Services Provided by
                             Unqualified Hospice Workers
                 (Limits Calculated for a 90-Percent Confidence Interval)

                                       Total Amounts                     Federal Share

           Point estimate                $13,390,913                       $8,163,671
           Lower limit                     6,754,952                        4,093,795
           Upper limit                    20,026,874                       12,233,547




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)             11
   HOSPICE CLAIMS ASSOCIATED WITH UNQUALIFIED HOSPICE WORKERS

                                             Sample Results

                                                                        Number of Claims
                                                                         Associated With
                                                                       Unqualified Hospice
                  Frame Size                   Sample Size                  Workers
                    56,044                        120                          110

         Estimates of Hospice Claims Associated With Unqualified Hospice Workers
                   (Limits Calculated for a 90-Percent Confidence Interval)

                              Point estimate                       51,374
                               Lower limit                         48,356
                               Upper limit                         53,469




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)         12
           APPENDIX D: STATE REGULATIONS FOR HOSPICE WORKERS

STATE REGULATIONS FOR INITIAL HEALTH EVALUATION FOR WORKERS

Pursuant to 77 Ill. Admin. Code § 280.2045:

    a) Each employee shall have an initial health evaluation, which shall be used to ensure that
       employees are not placed in positions that would pose undue risk of infection to
       themselves, other employees, patients, or family members.

    b) The initial health evaluation shall include a health inventory. This inventory shall be
       obtained from the employee and shall include the employee’s immunization status and
       any available history of conditions that would predispose the employee to acquiring or
       transmitting infectious diseases in the course of performing anticipated job functions. It
       shall include any history of exposure to, or treatment for, tuberculosis, any history of
       hepatitis, dermatologic conditions, chronic draining infections or open wounds.

    c) The initial health evaluation shall include a physical examination. The examination shall
       include at a minimum any procedures needed to:

            1) Detect any unusual susceptibility to infection and any conditions that would
               increase the likelihood of the transmission of disease, and

            2) Determine that the employee appears to be physically able to perform the job
               functions that the hospice program intends to assign to the employee.

    d) The health inventory and physical examination shall be completed no more than 30 days
       prior to and no more than 30 days after the date of initial employment.

    e) The initial health evaluation shall include a tuberculin skin test, which is conducted in
       accordance with the requirements of Section 690.720 of the Control of Communicable
       Diseases Code.

STATE REGULATIONS FOR BACKGROUND CHECKS FOR WORKERS

Pursuant to 77 Ill. Admin. Code § 280.2035:

    A hospice program shall comply with the Health Care Worker Background Check Act and
    the Health Care Worker Background Check Code (77 Ill. Admin. Code Part 955).

Pursuant to 77 Ill. Admin. Code § 955.100:

    This Part applies to all unlicensed individuals employed or retained by a health care
    employer as home health care aides, nurse aides, personal care assistants, private duty nurse
    aides, day training personnel, or an individual working in any similar health-related
    occupation where he or she provides direct care .…

CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)               13
STATE REGULATIONS FOR HOME HEALTH AIDE TRAINING

Pursuant to 77 Ill. Admin. Code § 245.70:

    a) Each home health agency and home nursing agency shall ensure that all persons
       employed as home health aides or under any other title, whose duties are to assist with
       the personal, nursing or medical care and emotional comfort of the patients, and who are
       not otherwise licensed, certified or registered in accordance with Illinois law to render
       such care, comply with one of the following conditions:

            1) Is approved on the Department’s Health Care Worker Registry. “Approved”
               means that the home health aide has met the training or equivalency requirements
               of this Section and does not have a disqualifying background check without a
               waiver (see Section 245.72);

            2) Meets training requirements by completion of a training program approved under
               the Long-Term Care Assistants and Aides Training Programs Code (see 77 Ill.
               Admin. Code 395); or

            3) Meets equivalencies established in subsection (b) of this Section.

    b) Equivalency may be established by any one of the following:

            1) Documentation of current registration from another State.

            2) Documentation of successful completion of a nursing arts course, which included
               at least 40 hours of supervised clinical experience, in an accredited nurse training
               program as evidenced by diploma, certificate or other written verification from
               the school, and successful completion of the written portion of the Department-
               established nursing assistant competency test.

            3) Documentation of successful completion of a United States military training
               program that includes the content of the Basic Nursing Assistant Training
               Program (see 77 Ill. Admin. Code 395), as evidenced by a diploma, certification
               DD-214, or other written verification, and successful completion of the written
               portion of the Department-established nursing assistant competency evaluation.

            4) Documentation of completion of a nursing program in a foreign country,
               including the following, and successful completion of the written portion of the
               Department-established competency test:

                     A) A copy of the license, diploma, registration or other proof of completion
                        of the program;

                     B) A copy of the Social Security card; and



CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)                14
                     C) Visa or proof of citizenship.

    c) Requests to establish equivalency shall be submitted to the Department with
       accompanying documentation .…




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)   15
                         APPENDIX E: STATE AGENCY COMMENTS




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)   16
                                 APPENDIX F: CMS COMMENTS




CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)   17
CMS’s Reliance on Illinois Licensure Requirements of Hospice Workers (A-05-12-00028)   18
